      Department of Homeland Security




            FEMA’s Sheltering and Temporary 

             Essential Power Pilot Program





OIG-13-15                                 December 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                December 7, 2012


MEMORANDUM FOR:




FROM:
                             Assistant nspector Gen
                             Office of Emergency Management Oversight

SUBJECT:                      FEMA's Sheltering and Temporary Essential Power Pilot
                              Program

Attached for your information is our final letter report, FEMA's Sheltering and
Temporary Essential Power Pilot Program.

In response to Hurricane Sandy, our office has initiated several rapid response audits
and reviews. We discussed the results of this audit with FEMA officials during the
course of the audit. We also provided a discussion draft report to FEMA on December 3,
2012. The report does not contain any recommendations; therefore, you do not need
to provide our office with a written response.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John Kelly, Deputy Assistant
Inspector General, Office of Emergency Management Oversight, at (202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   On October 29, 2012, Hurricane Sandy made landfall, affecting coastal and inland
   communities resulting in loss of life, major flooding, structural damage, and power loss
   to more than 8.5 million homes and businesses (directly affecting more than 17 million
   individuals). A dangerous snowstorm followed 9 days later, causing additional damage
   and power outages. Thirteen days after Hurricane Sandy’s landfall, 166,649 residential
   customers across three States - New York, New Jersey, and Connecticut - remained
   without power, in large part because of damage to their electrical systems, which
   prevented the electric utility companies from restoring power to their homes. Without
   additional government assistance, many of these homes could be without power during
   winter months, thus creating an immediate and undue threat to public health and
   safety.

   In response to this need, the Federal Emergency Management Agency (FEMA)
   established the Sheltering and Temporary Essential Power (STEP) pilot program,
   enabling residents to return to or remain in their homes as a form of shelter while
   permanent repairs are completed. This program will reduce the number of people in
   shelters or in the Transitional Shelter Assistance Program.

   The need for innovative FEMA programs and alternative housing solutions has been the
   subject of past congressional testimony. On July 8, 2009, Department of Homeland
   Security Inspector General Richard Skinner testified before the Committee on Homeland
   Security, U.S. House of Representatives, that the task of repairing and restoring housing
   stock is one of the most important challenges facing FEMA and its response and
   recovery partners following a catastrophic disaster, and that all other housing decisions
   and programs hinge on that single variable. Developing alternative housing options in
   response to catastrophic disasters is important for a number of reasons, but a key one is
   the cost of the current approach to post-disaster housing. FEMA does not have
   sufficient tools, operational procedures, and legislative authorities to promote the cost-
   effective repair of housing stocks, which would increase the amount of housing available
   and likely limit increases in the cost of housing, particularly rental rates.

   Results of Audit
   FEMA’s STEP pilot program is consistent with the authorities granted to the agency by
   the Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act) in
   assisting jurisdictions to perform activities that are essential in saving lives, protecting
   public health and safety, and protecting property. In carrying out this program, FEMA
   needs to address the vulnerabilities that are present whenever large sums of money are



www.oig.dhs.gov                                 2                                        OIG-13-15
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   disbursed in a new and unique manner. The current situation requires increased
   vigilance to monitor the expenditure of public funds.

   The Stafford Act Provides FEMA the Flexibility to Implement STEP

   Section 403 of the Stafford Act authorizes FEMA to take emergency protective measures
   to save lives and property (Category B), as part of its public assistance program. The
   purpose of the STEP pilot program is “to assist State, local, and Tribal governments in
   performing work and services essential to saving lives, protecting public health and
   safety, and protecting property.” FEMA intends STEP to provide essential power and
   repairs to affected residences, thereby reducing the demand for other shelter options
   and allowing people to return to or remain in their homes. This program is for
   residential properties only, and will provide a maximum of $10,000 per residential unit
   to repair such items as electric meters, blown-out doors and windows, and damaged
   plumbing. Our Office of General Counsel has reviewed FEMA’s guidance regarding the
   STEP pilot program and agreed that it is an appropriate use of public assistance funds.
   Additionally, given the facts and circumstances surrounding Hurricane Sandy, the
   program may substantially reduce the overall long-term costs associated with sheltering
   and disaster housing.

   New Pilot Programs Are Vulnerable to Fraud, Waste, and Abuse

   Introducing new assistance or pilot programs entails start-up risks that require robust
   internal controls to avoid problems involving the expenditure of public funds. The
   Office of Inspector General and the Government Accountability Office, as well as FEMA
   internal assessments, have identified needed improvements to the internal controls of
   the individual and public assistance programs.

   FEMA, in carrying out its mission to support citizens and first responders, disburses
   billions of dollars annually to assist disaster survivors. This mission exposes FEMA to
   potential fraud, waste, and abuse in the execution of routine disaster assistance
   programs. During the implementation of a pilot program such as this one, the risks of
   fraud, waste, and abuse are exacerbated. Consequently, this pilot program requires
   increased vigilance in order to monitor the expenditure of public funds, including the
   need for competitive bidding and for monitoring the costing of single-family and
   multifamily unit price differentials, quality of workmanship, liability of workmanship,
   duplication of benefits, and long-term impact. As part of our legislative mandate to
   review selective FEMA programs, we may look at FEMA’s internal controls over the STEP
   pilot program at a future date.




www.oig.dhs.gov                               3                                       OIG-13-15
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   Conclusion
   We determined that FEMA’s actions in promulgating this pilot program are consistent
   with the authorities granted by the Stafford Act. Given the number of individuals
   affected by Hurricane Sandy, FEMA needs to maintain strong internal controls. We
   commend FEMA for its rapid response in designing this urgently needed program less
   than a month after Hurricane Sandy devastated communities on the Atlantic coast. If
   successful, the program can provide the assistance necessary to save lives, protect
   public health and safety, and protect property. Nevertheless, FEMA needs to be mindful
   of the vulnerabilities associated with implementing pilot programs and to institute
   adequate internal controls to protect against those vulnerabilities.




www.oig.dhs.gov                              4                                     OIG-13-15
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this review was to determine whether FEMA’s actions in promulgating
   the STEP pilot program were consistent with the authorities granted by the Stafford Act,
   and if so, what issues FEMA may need to address while implementing this pilot program.
   We conducted this review applying the statutes, regulations, and FEMA policies and
   guidelines in effect at the time of our fieldwork. We interviewed FEMA officials and
   performed other procedures considered necessary to accomplish our objective. We did
   not assess the adequacy of the agency’s internal controls applicable to grant activities
   because it was not necessary to accomplish our audit objective.

   We conducted this performance audit between November 15 and 27, 2012, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               5                                       OIG-13-15
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS FEMA Liaison
   Director of Local Affairs, Office of Intergovernmental Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Associate Administrator for Policy and Program Analysis
   Director, Program Analysis and Evaluation Division
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 6                          OIG-13-15
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
